<html>
<title> - EXPLORING OPPORTUNITIES TO STRENGTHEN EDUCATION RESEARCH WHILE PROTECTING STUDENT PRIVACY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                 EXPLORING OPPORTUNITIES TO STRENGTHEN
                  EDUCATION RESEARCH WHILE PROTECTING
                            STUDENT PRIVACY

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 28, 2017

                               __________

                           Serial No. 115-21

                               __________

  Printed for the use of the Committee on Education and the Workforce





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-995 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
              
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Steve Russell, Oklahoma              Mark Takano, California
Elise Stefanik, New York             Alma S. Adams, North Carolina
Rick W. Allen, Georgia               Mark DeSaulnier, California
Jason Lewis, Minnesota               Donald Norcross, New Jersey
Francis Rooney, Florida              Lisa Blunt Rochester, Delaware
Paul Mitchell, Michigan              Raja Krishnamoorthi, Illinois
Tom Garrett, Jr., Virginia           Carol Shea-Porter, New Hampshire
Lloyd K. Smucker, Pennsylvania       Adriano Espaillat, New York
A. Drew Ferguson, IV, Georgia
Ron Estes, Kansas
Karen Handel, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

Duncan Hunter, California            Jared Polis, Colorado
David P. Roe, Tennessee                Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Raul M. Grijalva, Arizona
Luke Messer, Indiana                 Marcia L. Fudge, Ohio
David Brat, Virginia                 Suzanne Bonamici, Oregon
Tom Garrett, Jr., Virginia           Susan A. Davis, California
Karen Handel, Georgia                Frederica S. Wilson, Florida
























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 28, 2017....................................     1

Statement of Members:
    Polis, Hon. Jared, Ranking Member, Subcommittee on Early 
      Childhood, Elementary, and Secondary Education.............     4
        Prepared statement of....................................     4
    Rokita, Hon. Todd, Chairman, Subcommittee on Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Schwartz, Dr. Nathaniel, Chief, Research and Strategy 
      Officer, Tennessee Department of Education.................    14
        Prepared statement of....................................    16
    Stickland, Ms. Rachael, Co-Founder and Co-Chair, Parent 
      Coalition for Student Privacy..............................     6
        Prepared statement of....................................     9
    Whitehurst, Dr. Grover J. ``Russ'', Senior Fellow in Economic 
      Studies, Center on Children and Families, the Brookings 
      Institution................................................    30
        Prepared statement of....................................    32
    Whitmore Schanzenbach, Dr. Diane, Director, The Hamilton 
      Project, The Brookings Institution.........................    22
        Prepared statement of....................................    24

Additional Submissions:
    Mr. Polis:
        Letter dated May 8, 2014, from the U.S. Department of 
          Justice................................................    47
        Submission for the record................................    51
        Information on the Rights of All Children to Enroll in 
          School: Questions and Answers for States, School 
          Districts and Parents..................................    53
    Chairman Rokita:
        Letter dated June 27, 2017, from the Electronic Privacy 
          Information Center.....................................    60
    Ms. Stickland:
        Prepared statement of....................................    64
    Questions submitted for the record by:
        Roe, Hon. David P., a Representative in Congress from the 
          State of Tennessee 




    Responses to questions submitted for the record to:
        Dr. Schanzenbach.........................................    73
        Dr. Schwartz.............................................    74
        Dr. Whitehurst...........................................    81

 
                       EXPLORING OPPORTUNITIES TO
                     STRENGTHEN EDUCATION RESEARCH
                    WHILE PROTECTING STUDENT PRIVACY

                              ----------                              


                        Wednesday, June 28, 2017

                       House of Representatives,

                    Subcommittee on Early Childhood,

                  Elementary, and Secondary Education,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Thompson, Messer, Polis, 
and Bonamici.
    Also Present: Representatives Foxx, Handel, and Scott.
    Staff Present: Courtney Butcher, Director of Member 
Services and Coalitions; Amy Raaf Jones, Director of Education 
and Human Resources Policy; Nancy Locke, Chief Clerk; Jake 
Middlebrooks, Legislative Assistant; James Mullen, Director of 
Information Technology; Krisann Pearce, General Counsel; Lauren 
Reddington, Deputy Press Secretary; Mandy Schaumburg, Education 
Deputy Director and Senior Counsel; Brad Thomas, Senior 
Education Policy Advisor; Michael Woeste, Press Secretary; 
Tylease Alli, Minority Clerk/Intern and Fellow Coordinator; 
Austin Barbera, Minority Press Assistant; Jacque Chevalier, 
Minority Director of Education Policy; Mishawn Freeman, 
Minority Staff Assistant; Alexander Payne, Minority Education 
Policy Advisor; and Veronique Pluviose, Minority General 
Counsel.
    Chairman Rokita. Good morning, everyone. I first want to 
take a moment to take care of one housekeeping item. Yesterday, 
Representative Karen Handel of the Sixth District of Georgia 
was appointed to the Committee on Education and Workforce. And 
while her subcommittee assignments are not yet final, I do want 
to welcome the Congresswoman to the committee.
    I've known Karen personally for years because we served as 
secretaries of State together. Her masterful leadership 
creating commonsense election reforms in Georgia led to models 
for the rest of the Nation to follow. She has showed tremendous 
leadership for the people of the entire State of Georgia, and I 
look forward to seeing that leadership here on the committee.
    So, Karen, welcome.
    Mrs. Handel. Thank you very much.
    Chairman Rokita. There is no denying the fact that we live 
in a data-driven society. Information sharing is connecting and 
changing almost every industry. And, of course, our education 
system is no different.
    In 2002, the Education Sciences Reform Act, ESRA, was 
enacted to update and improve how we could leverage education 
research to better serve our Nation's schools. And while ESRA 
was necessary to reform education research to better inform 
what is working in schools, the law may not be working as well 
as Congress wanted or intended. In fact, a 2013 Government 
Accountability Office study found weaknesses in the law, 
specifically significant delays in the distribution of research 
available to educators.
    States and local school districts rely on timely education 
research to identify best practices from across the country in 
order to build a better learning environment. And we need to 
ensure this research is delivering results for our schools in 
need. The data collected by schools is essential for 
understanding what is working, and it allows for a more open 
conversation between schools and parents about strategies that 
work for our students.
    Now, while technology has allowed information to be at our 
fingertips and has made our lives certainly more connected, if 
not easier, such a change comes with significant privacy 
concerns that we in this committee need to address.
    Americans are apprehensive----and with good reason----that 
personal information, such as personal finances and medical 
records are susceptible to hacking. We hear it in the news 
almost on a daily basis. And our students' educational 
information covers not only all of those areas, but even more, 
and it is vital that we do all that we can to keep this 
information safe.
    So when we think of educational information, we may only 
think of grades, test scores, course lists, but there is so 
much more that is associated with a student's personal record. 
Individual education records may contain sensitive information, 
such as Social Security numbers, physical and mental health 
records, family issues, and student loan and other personal 
finance data. As a father of two young boys, I understand 
firsthand the importance of keeping our children's records safe 
and secure.
    So when Congress passed the Family Educational Rights and 
Privacy Act, FERPA, as we call it, way back in 1974 to protect 
student privacy, the internet, of course, didn't even exist. As 
we continue to see technology play a key role in how we conduct 
educational research, it is time for Congress to have a serious 
discussion on whether or not FERPA is keeping all student 
information safe, and how we can update it for----and, if so, 
how----or, if not, how we can update it for a 21st century 
world.
    Our hearing today will focus on how we can strike the right 
balance between leveraging education research for our students, 
while ensuring their information is private and secure. We have 
gathered a diverse group of witnesses, some of whom I've met 
already, who will give us their own perspectives on the 
effectiveness of both the ESRA and FERPA, and we look forward 
to hearing their stories.
    Education research can be a powerful tool to help our 
students, but that information should not come at the cost of a 
student's private and personal information. And I think we can 
thread that needle here in the 21st century. I look forward to 
our discussions of these issues today.
    And now I yield to Ranking Member Jared Polis for his 
opening statement.
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    Good morning, and welcome to today's subcommittee hearing. I'd like 
to thank our panel of witnesses and my colleagues for joining today's 
important discussion on education research and student privacy.
    I also want to welcome Congresswoman Karen Handel to the 
subcommittee. I've known Karen personally for years because we served 
as Secretaries of State together. Her masterful leadership creating 
common sense election reforms in Georgia led to models for the rest of 
the nation to follow. She showed tremendous leadership for the entire 
state of Georgia and I look forward to seeing it here on the committee.
    There is no denying the fact we live in a data-driven society. 
Information sharing is connecting and changing almost every industry, 
and our education system is no exception.
    In 2002, the Education Sciences Reform Act (ESRA) was enacted to 
update and improve how we could leverage education research to better 
serve our nation's schools.
    While ESRA was necessary to reform education research to better 
inform what is working in schools, the law may not be working as well 
as Congress wanted or intended.
    In fact, a 2013 Government Accountability Office (GAO) study found 
weaknesses in the law, specifically significant delays in the 
distribution of research available to educators.
    States and local school districts rely on timely education research 
to identify best practices from across the country in order to build a 
better learning environment, and we need to ensure this research is 
delivering the results our schools need.
    The data collected by schools is essential for understanding what 
is working, and it allows for a more open conversation between schools 
and parents about strategies that work for our students.
    While technology has allowed information to be at our fingertips, 
and has made our lives more connected, such a change comes with 
significant privacy concerns.
    Americans are apprehensive, with good reason, that personal 
information such as personal finances and medical records are 
susceptible to hacking. Our students' educational information covers 
all of these areas and more, and it is vital that we do all that we can 
to keep this information safe.
    When we think of educational information, we may only think of 
grades, test scores, and course lists, but there is so much more that 
is associated with a student's personal record.
    Individual education records may contain sensitive information such 
as social security numbers, physical and mental health records, family 
issues, and student loan and other personal finance information.
    As a father of two young boys, I understand first hand the 
importance of keeping our children's records safe and secure.
    When Congress passed the Family Educational Rights and Privacy Act 
(FERPA) in 1974 to protect student privacy, the Internet didn't exist.
    As we continue to see technology play a key role in how we conduct 
educational research, it is time for Congress to have a serious 
discussion on whether or not FERPA is keeping all student information 
safe.
    Our hearing today will focus on how we can strike the right balance 
between leveraging education research for our students, while ensuring 
their information is private and secure.
    We have gathered a diverse group of witnesses who will give us 
their own perspectives on the effectiveness of both ESRA and FERPA, and 
we look forward to hearing their stories.
    Education research can be a powerful tool to help our students, but 
that information should not come at the cost of a student's private and 
personal information. I look forward to our discussion of these issues 
today.
                                 ______
                                 
    Mr. Polis. Thank you, Chairman Rokita, for holding this 
hearing on this very important topic this morning. I want to 
thank all four of our witnesses for joining us.
    Education research and student data privacy are both very 
important, both to us as members of this committee as well as 
to our constituents. Fortunately, both education research and 
data privacy are thoroughly bipartisan issues, and members of 
this committee have a history of working together on bipartisan 
legislation and oversight to protect privacy and to utilize 
data to improve educational opportunities for children across 
our country.
    For example, the Success in Education Through Research Act 
would have updated current education research law. The Student 
Privacy Protection Act would have updated current law 
addressing educational rights and privacies for the internet 
era.
    Additionally, I, along with my colleague, Congressman 
Messer, introduced the Student Digital Privacy and Parental 
Rights Act last Congress, which would create new privacy 
protections for students by prohibiting ed-tech vendors from 
selling student data or using it for commercial gain. The bill 
also helps reinforce a bipartisan belief that ed-tech providers 
have a responsibility in guaranteeing that student data is 
private and secure and that reasonable precautions are taken, 
just as it would be for yours or my credit card or personal 
financial information.
    It's important to acknowledge the support and the role that 
education research plays in helping achieve equity of 
opportunity amongst all students, and the promise of continued 
progress towards individualized education using educational 
technology. The importance of data is even more crucial as 
States begin to implement the Every Student Succeeds Act, 
passed by this Congress, which ensures that schools and 
districts are held accountable for the education they provide 
to their students and for all kinds of students, even though 
States have broader flexibilities under the law and how they 
can meet those requirements.
    ESSA contains an important privacy safeguard by requiring 
States to set a minimum sample size for reporting disaggregated 
group-level data so that individual data cannot be inferred 
from the group data, commonly referred to as the n-size. The 
statute requires States to ensure the minimum number does not 
reveal any personally identifiable information.
    One of the challenges I look forward to addressing here in 
this hearing is the need to strike a balance between student 
data privacy laws with very strong protections, while still 
allowing students, teachers, districts, and families to benefit 
from research findings, from State data systems, from optimized 
and personalized educational technologies, and the promise of 
ed-tech innovation.
    I want to thank our witnesses for participating in this 
hearing. I'm very much looking forward to your testimony.
    And I yield back.
    [The statement of Mr. Polis follows:]

Prepared Statement of Hon. Jared Polis, Ranking Member, Subcommittee on 
          Early Childhood, Elementary, and Secondary Education

    Education research and student data privacy are topics important to 
my constituents and me. Both are also bipartisan issues, and members of 
this committee have a history of working together to introduce 
bipartisan legislation to reauthorize education data and privacy laws. 
For example, the Success in Education Through Research Act (SETRA) 
would have updated current education research law. And the Student 
Privacy Protection Act would have updated current law addressing 
educational rights and privacy.
    Additionally, I, along with my colleague Congressman Messer, 
introduced the Student Digital Privacy and Parental Rights Act last 
Congress, which would create new privacy protections for students by 
prohibiting ed tech vendors from selling student data or using it for 
commercial gain. The bill also helps reinforce a bipartisan belief that 
ed tech providers have a responsibility in guaranteeing student data is 
private and secure. I look forward to continuing to work with 
Congressman Messer on this issue and re-introducing our student data 
privacy bill this year.
    While education rights and privacy are essential, and we want to 
make sure federal law does not hinder any state efforts that attempt to 
raise the bar in protecting student privacy, it is also important to 
acknowledge and support the role education research plays in helping 
achieve equity of opportunity amongst all students.
    Reliable de-identified data plays a constructive role in 
identifying gaps in public education, and longitudinal data systems 
help state and local leaders identify strategies for intervention and 
improvement of poorly performing schools.
    The importance of data is even more crucial as states begin to 
implement the Every Student Succeeds Act (ESSA), which still ensures 
schools and districts are held accountable for the education they 
provide to their students even though states have broader flexibilities 
and responsibilities under the law. ESSA also contains an important 
privacy safeguard by requiring states to set a minimum sample size for 
reporting disaggregated group-level data. Commonly referred to as the 
``n-size;'' the statute requires states to ensure that the minimum 
number does not reveal any personally identifiable information.
    One of the challenges I look forward to addressing in this hearing 
is the need to strike a balance between student data privacy laws with 
strong protections, while still allowing students, teachers, districts, 
and families to benefit from research findings, state data systems, and 
the promise of ed tech innovations, like personalized learning 
platforms.
    Thank you again to the witnesses for participating in this hearing, 
and I look forward to your testimony.
                                 ______
                                 
    Chairman Rokita. I thank the gentleman.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record. And, without objection, the hearing 
record will remain open for 14 days to allow such statements 
and other extraneous material referenced during the hearing to 
be submitted for the official hearing record.
    I'd now like to turn to the introduction of our 
distinguished witnesses, and I recognize, again, the ranking 
member to introduce the first witness.
    Mr. Polis. We have a Coloradan on our panel today. I'm 
excited to welcome back Rachael Stickland, who is a parent from 
Jefferson County, Colorado, which I represent a part of. She is 
the founder of Privacy Matters and the co-chair of the Parent 
Coalition for Student Privacy. Along with her coalition co-
founder, they've organized a national coalition of parents and 
advocates to support student privacy and advocate for State and 
Federal legislation with strong student data privacy 
protections. I'm thrilled to welcome Jefferson County resident 
Rachael Stickland.
    Chairman Rokita. I thank the gentleman. Welcome.
    I'll resume with our introductions.
    Dr. Nathaniel Schwartz is the chief research and strategy 
officer for the Tennessee Department of Education.
    Welcome, sir.
    Dr. Diane Schanzenbach----
    Ms. Schanzenbach. I'm used to it.
    Chairman Rokita. I'll look into your digital record, 
ma'am----is the director of The Hamilton Project and a senior 
fellow at the Brookings Institution.
    Dr.----
    Ms. Schanzenbach. Schanzenbach.
    Chairman Rokita.----Schanzenbach, welcome. Thank you.
    Dr. Russ Whitehurst is a senior fellow in the Center on 
Children and Families in the Economic Studies program at the 
Brookings Institution.
    Dr. Whitehurst, welcome as well.
    I now ask our witnesses to raise your right hand.
    [Witnesses sworn.]
    Chairman Rokita. Let the record reflect that all witnesses 
answered in the affirmative.
    Thank you.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system. And this is a reminder for 
us up here as much as it is for you. You'll each have 5 minutes 
to present your testimony. And when you begin, the light in 
front of you will, of course, be green. With 1 minute left, it 
will be yellow. And with a red light, I'll start hitting on the 
gavel. So at that point, I'll ask you to wrap up your remarks 
as best you're able. And, remember, all this will come into the 
record, including any written testimony you've given us. And 
then members, under that same lighting system, will each have 5 
minutes to ask questions.
    So, with that, Ms. Stickland, you're recognized for 5 
minutes.

TESTIMONY OF RACHAEL STICKLAND, CO-FOUNDER AND CO-CHAIR, PARENT 
                 COALITION FOR STUDENT PRIVACY

    Ms. Stickland. Thank you, Chairman Rokita, Ranking Member 
Polis, and distinguished members of the subcommittee, for 
inviting me to testify today on behalf of parents concerned 
about student privacy. My name is Rachael Stickland. I am a 
parent of two public school children in Colorado and a co-
founder and co-chair of the Parent Coalition for Student 
Privacy.
    Today, I'd like to focus my testimony on the need to 
consider the broad implications to privacy when student data 
are collected and disclosed for various purposes, including 
research.
    The first topic I would like to address is data security. 
In the last 18 months alone, K through 12 public schools in the 
U.S. experienced at least 147 separate cybersecurity-related 
incidents, some resulting in identity theft. Last year, 13 
percent of all higher education institutions experienced a 
ransomware attack. This is the first time that the education 
sector outpaced the government, retail, and healthcare 
industries in this type of threat.
    But these incidences aren't----excuse me----incidents 
aren't limited to K-12 schools and colleges. The U.S. 
Department of Education has been found to have especially weak 
security standards as reported in a 2015 audit by the 
Department's Inspector General. According to the audit, staff 
in the Inspector's Office hacked into the Department's main IT 
system, gained unfettered access to personal data without 
anyone noticing.
    In May 2016, the government scorecard created to assess how 
well Federal agencies were implementing data security measures 
awarded the Education Department an overall grade of D.
    Earlier this year, the IRS disabled the FAFSA data 
retrieval tool on the Education Department's website until 
extra security protections could be added. The IRS later 
reported that the personal data of as many as 100,000 taxpayers 
may have been compromised through this tool. My family, in 
fact, fell victim to this attack. In a series of letters sent 
by the IRS, we learned someone likely obtained my husband's tax 
data through the FAFSA application and then filed a joint 
return on our behalf. The IRS has since provided 1 year of 
identity theft protection for my husband, but nothing for me or 
our children.
    So whether at the State, local, or Federal level, student 
information is vulnerable to breaches and hacks such as these 
in large part because the Federal student privacy law known as 
FERPA has no baseline security requirements. Until the law is 
updated to address data security in the 21st century, students 
will continue to be at risk long into their adulthood.
    Another issue we urge you to consider is the use and 
disclosure of student data stored in statewide longitudinal 
data systems, or SLDSs, or any Federal data repository. While 
parents generally support research to drive decision-making in 
education, most believe that education should be in the control 
of their local community and that a student's data should 
remain within the school or district.
    When State or Federal agencies gain access to identifiable 
student data without parental consent, many parents perceive 
this action as government overreach. Other parents are 
concerned that data collected on individuals, even when limited 
to certain elements and collected for one purpose, could be 
expanded in scope and subjected to mission creep. K through 12 
student data currently maintained by most States in their SLDS 
contain upwards of 700 highly sensitive data elements, 
including disciplinary records, disabilities, and immigration 
status. The comprehensive nature of these data sets creates 
lifelong dossiers on individuals and could quickly become a go-
to repository for other State agencies, institutions, or the 
Federal Government.
    Frankly, it's not difficult to imagine how this gold mine 
of data could be repurposed for political or ideological gain, 
which is one reason our coalition supports maintaining the 
Higher Education Act's ban on a Federal student unit-record 
system.
    FERPA became law at a time when students' files were held 
in the principal's office, for the most part, never left the 
school. Many parents believe this is still the case and are 
shocked to learn that troves of electronic student data are 
collected by schools and their contractors, stored online, and 
digitally disclosed to private companies and to State and 
Federal agencies without their consent.
    We believe the disconnect stems, in part, from FERPA's lack 
of important transparency requirements or fair information 
practices. At a minimum, parents should know who has their 
students' data----excuse me, their children's data, and for 
what purpose, how it is secured, how to access and correct it, 
and when it will be destroyed. Optimally, parents should be 
notified in advance of any disclosure outside of the school 
district and given the opportunity to opt out and delete 
information not necessary to the child's transcript.
    FERPA is long overdue for an update. It must be modernized 
to assure students that their information will be protected 
from unauthorized access and misuse. Until then, our coalition 
strongly urges policymakers not to enable new or expanded data 
collections for research or any other purposes.
    Thank you, again, for the opportunity to share our 
coalition's concerns with you today and for your consideration 
of my testimony.
    [The statement of Ms. Stickland follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Chairman Rokita. Thank you, Ms. Stickland.
    Dr. Schwartz, you're recognized for 5 minutes.

    TESTIMONY OF DR. NATHANIEL SCHWARTZ, CHIEF RESEARCH AND 
      STRATEGY OFFICER, TENNESSEE DEPARTMENT OF EDUCATION

    Mr. Schwartz. Thank you for the opportunity to be here.
    During my 5 years with the Tennessee Department of 
Education, our agency has received four grants from the 
Institute of Education Sciences, or IES, and we have joined 
with Vanderbilt University to create the Tennessee Education 
Research Alliance, one of the first research-practice 
partnerships aimed directly at State policy in K-12 education.
    We're quite proud in Tennessee about the major improvements 
we have seen in student achievement recently, with our States' 
scores in the National Assessment of Education Progress rising 
faster over the last 5 years than any other States. And we 
ascribe some of this progress to the ways that we anchor our 
work in a system of continuous research and evidence-driven 
improvements.
    State departments of education like mine need rigorous and 
meaningful research in order to function effectively. In 
Tennessee, we rely on Federally supported research to determine 
our State's greatest needs, to identify and improve levers of 
change, and to evaluate program effectiveness.
    In my written testimony, I describe the way our State used 
an IES continuous improvement grant to develop a model for 
coaching teachers that we hope will contribute to rapid reading 
gains for our State's neediest students. This kind of 
innovation on a highly relevant problem directly aligns with 
the aims of our Federally supported research system. But making 
this type of research the norm requires several key elements, 
not all of which are consistently available.
    First and foremost, the work in Tennessee depends on the 
presence of a strong internal research team. For nearly every 
major research study that our State has conducted, including 
multiple gold-standard, randomized trials that are now 
influencing national conversations in areas ranging from 
preschool to early postsecondary, our in-house researchers 
identified the opportunities and facilitated the work. Although 
vital, this sort of State research office receives little 
direct support or explicit encouragement from the Federal 
Government.
    Second, our work depends on IES support for long-term 
partnerships between our State department and independent 
research partners. Just as we need strong internal research 
teams, we also need a consistent set of knowledgeable partners 
who can provide an independent voice and ties to the larger 
research community. Currently, the grants that IES provides 
supporting partnerships between researchers and State agencies 
make up only about 12 percent of the total IES portfolio.
    Lastly, we need secure systems that let us confidently 
conduct research while ensuring student privacy. Our 
partnership with the Tennessee Education Research Alliance has 
created systems to consolidate department data and allow this 
data, with student names and IDs removed, to be used within a 
secure environment by approved education researchers.
    These points lead to several recommendations. First, I ask 
that you preserve the Federal role in supporting research. The 
quality of our education in our country depends on decisions 
made at the State and local level. We need these decisions to 
be made with strong evidence and information.
    Second, I'd encourage you to provide support for internal 
research teams within State departments of education. Strong, 
applied research work depends on the presence of local 
researchers inside education agencies who have the knowledge 
and expertise to conduct analyses, to seed new research, and to 
act on research findings. The Federal Government could take 
several steps to help build these offices both by offering 
direct financial support or by offering IES support for 
training programs designed specifically to develop the pool of 
researchers with the skills and desire to serve within State 
and local agencies.
    Third, I'd invite you to build the emphasis within IES on 
long-term, rigorous research partnerships that will produce 
tangible State and district-level improvements and innovations. 
In particular, IES could do more to support long-term 
organizations like the Tennessee Education Research Alliance 
that build expertise, knowledge, and data security at the local 
level.
    Fourth, I ask that you explicitly encourage the secure use 
of educational data for research purposes and that you clarify 
Federal guidance on certain issues. In my written testimony, I 
note some specific areas where the Federal Government could 
clear up uncertainty about the use of data that crosses 
administrative agencies. And here I agree, in many ways, with 
my colleague, Ms. Stickland.
    The last point here gets a little down in the weeds as I 
near the end of my 5 minutes. And so I'd be happy to answer 
questions on this topic or refer you to my written testimony.
    I thank you, once again, for the opportunity to discuss 
these important issues, and I look forward to answering 
whatever questions you might have. Thank you.
    [The statement of Mr. Schwartz follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
     
    Chairman Rokita. Thank you, Doctor.
    Dr. Schanzenbach, you're recognized for 5 minutes.

  TESTIMONY OF DR. DIANE WHITMORE SCHANZENBACH, DIRECTOR, THE 
          HAMILTON PROJECT, THE BROOKINGS INSTITUTION

    Ms. Schanzenbach. Thank you.
    Thank you for the opportunity to appear before you today to 
discuss opportunities to strengthen education research while 
also protecting student privacy. I'm Dr. Diane Schanzenbach. 
I'm the director of the Hamilton Project and a senior fellow in 
Economic Studies at the Brookings Institution. I'm also a 
professor of Education and Social Policy at Northwestern 
University, where I direct a predoctoral training program 
funded by the Federal Institute of Education Sciences.
    Our education system must continue to adapt and improve to 
ensure that our Nation's citizens are prepared for the jobs of 
the future and we make careful and efficient use of public 
resources. Rigorous and relevant education research is a 
critical component of an education system dedicated to 
continuous improvement.
    As a researcher who has three children attending public 
elementary schools in Illinois, my husband and I both share 
concerns about the student privacy and data confidentiality. 
Any time a student's data are shared outside of school walls, 
for example with researchers such as myself, there are risks 
that are important to manage and minimize through appropriate 
protocols and procedures. At the same time, there are also 
large benefits that can be derived from researchers' access to 
data. The key is to ensure that we mitigate any potential risks 
without foregoing the desperately needed progress and benefits 
that research can have on the education system.
    Fortunately, I know firsthand, from my experience as a 
researcher and a parent, that individual students' data can be 
appropriately safeguarded, while simultaneously being 
productively used to assess and improve education. I'm 
optimistic that, during today's hearing, we'll be able to 
address some of the key misconceptions regarding what data are 
made available to researchers and how the data are used. I'm 
going to speak briefly to how researchers doing work with 
secure student-level data must handle the data by law.
    Before access to data is granted, there are detailed 
written agreements between the researcher and the district or 
State partner. These always include instructions on who may use 
the data and how the data may be used. For example, with one 
partner, I can only access their dataset on a stand-alone 
desktop computer with no access to the internet that I keep in 
my office. That computer has to be kept in a locked safe when 
it's not in use. Of course, I may only use the data for a 
specific approved project, and I no longer have access to the 
data once that project is complete.
    While these datasets have information about individual 
students, the research itself is never about individual 
students. While researchers need access to individual-level 
data to conduct the analysis, the point is never to hone in on 
one individual, but instead to use a large number of 
individuals' data to understand broader trends. In fact, I'm 
not permitted to publish results that might inadvertently 
identify any individual.
    In my experience, when data from State or district 
longitudinal data systems are shared with external researchers, 
they do not contain identifying information such as names or 
addresses and oftentimes contain anonymized student numbers.
    The emphasis on rigorous and relevant research and an 
increasing access to administrative datasets has led to a 
dramatic expansion of valuable insights. While there are many, 
many success stories, I'll highlight a few recent studies that 
have already yielded demonstrable results and significant 
impact. Researchers have measured the diversity of impacts of 
charter schools on student achievement. It also measured the 
spillover benefits of school voucher programs on the children 
who stay behind in regular public schools.
    One of my favorite examples is from Chicago. Leveraging 
longitudinal data, researchers discovered early-warning 
indicators that predict high school dropout. Based on this 
research, they developed a simple Freshmen On-Track indicator 
based on ninth grade credit completion and course failures. 
Armed with this new information from research about what to 
look for, individual schools now monitor their own students' 
progress on this measure and can intervene early to get 
specific ninth and tenth graders at high risk of dropping out 
back on track to improve their likelihood of graduating from 
high school. School districts all across the country have 
adopted this approach to improve their graduation rates as 
well.
    While there are many more success stories, one factor 
remains constant: Investments in data systems that support 
cutting-edge research, offer an impactful mechanism to improve 
our education system and the skills of millions of American 
students. We've seen significant improvements in education 
policy and practice, spurred by rigorous and relevant research. 
To be economically competitive in a rapidly evolving world 
market, it is imperative that we continue to improve the U.S. 
education system and increase the system's return on 
investment. Additional research will be key to driving these 
needed improvements. Along with the strong benefits of 
research, however, comes the need to protect student privacy 
and data confidentiality. Both goals can be achieved by helping 
States adopt best practices to protect confidentiality while 
still partnering with researchers. Thank you.
    [The statement of Ms. Schanzenbach follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Chairman Rokita. Thank you, Doctor.
    Dr. Whitehurst, you're recognized for 5 minutes.

 TESTIMONY OF DR. GROVER J. ``RUSS'' WHITEHURST, SENIOR FELLOW 
   IN ECONOMIC STUDIES, CENTER ON CHILDREN AND FAMILIES, THE 
                     BROOKINGS INSTITUTION

    Mr. Whitehurst. Thank you.
    As someone who's been an active researcher and user of 
privacy-protected student data, and as someone who's the 
founding director of the Institute of Education Sciences, I'm 
very appreciative for the opportunity to testify today.
    For those of you not familiar with it, the mission of the 
Institute of Education Sciences, IES, is to report statistics 
on the condition of education in the U.S., to fund research on 
educational programs and practices that support student 
learning, and to evaluate the effectiveness of Federal and 
other education programs.
    The Federal Education Research Enterprise was established 
by the Cooperative Research Act of 1954. And I believe it was a 
failure prior to the establishment of IES in 2002. Books have 
been written about this. I will summarize with a quote from the 
National Academies of Sciences. They did a report on the 
immediate predecessor to IES. That was the Office of Education 
Research and Improvement. They cataloged a litany of problems 
with that agency and concluded with, quote, ``OERI needs to be 
rebuilt.''
    Congress did that with the Education Sciences Reform Act of 
2002. Here's what the Office of Management and Budget said 7 
years later about IES: Quote, ``Since its creation by the 
Education Sciences Reform Act, IES has transformed the quality 
and rigor of education research within the Department of 
Education and increased the demand for scientifically based 
evidence of effectiveness in the education field as a whole.'' 
I would refer to the previous two witnesses as evidence in 
point to that.
    This leads me to the first of four points and 
recommendations.
    First, if it isn't broke, don't fix it.
    The operational success of IES for the last 15 years has 
spent too long serving directors, several leaders delegated the 
responsibility of the director, and three different 
Presidential administrations. The stability and performance 
across variations in leadership is due to the legislation 
itself. The legislation includes clear----gives IES a clear and 
focused mission, statutory independence from political 
interference, highly qualified staff, and strong internal 
controls for quality.
    So I recommend that as you take up reauthorization of IES, 
you retain the core components of the Education Sciences Reform 
Act and focus on the ways to add to functions of IES that will 
make it more useful.
    The second point is follow the money. IES operates with an 
annual budget of a little more than $600 million. This is a 
small amount in relative terms, only about 1 percent of the 
Department's discretionary budget. On the bright side, the IES 
budget has risen over the years, and it has not whipsawed. 
That's very important.
    My immediate concern here today is not so much the line 
item program budget, but the budget for salaries and expenses. 
That budget is drawn from the Department's omnibus budget for 
administration. It's at the discretion of the Secretary. IES 
has substantial and absolutely essential independent authority 
to carry out its work. But it would be easy for an 
administration that is displeased with certain products because 
they're off message or simply has other priorities for its 
administrative budget, to cripple IES through reductions in 
funding for its salaries and expenses. The danger is evident in 
the Department's present plans for an across-the-board 
reduction in force that may cut IES staff, already small in 
number and operating with high efficiency, to the bone.
    Thus, I recommend that in reauthorizing IES, this committee 
provide for a specific budget for the administration of IES.
    Third point is that time is of the essence. The yield in 
terms of useable products from individual IES investments 
typically takes years to emerge. Research----a research firm 
gets a contract. They give you the results 4 years later. 
That's important work. There's a natural timeline to it. At the 
same time, a lot of education policy occurs in timeframes 
measured in months, not in years, and that decision-making 
often occurs bereft of any real insights from the research that 
already may exist.
    Consider, for example, the Trump administration's fiscal 
year 2018 budget proposal to cut funding to colleges and 
universities for the Federal Work-Study Program. This Congress 
will need to consider that proposal. Wouldn't it be nice if IES 
were funding a program activity that, in a matter of months, 
could generate an objective report on what we know and don't 
know about Federal Work Study, how it's performing, who it 
serves, and what the consequences would be for changing it?
    I recommend, thus, that you authorize a budget for IES to 
generate independent, quick turnaround reports on high-impact 
policy issues that arise in education policy at the Federal and 
State levels.
    Finally, point four speaks to the privacy issues we are 
talking about today. There's invaluable information to improve 
education in large administrative databases of student records. 
Mining that data has risks that must be acknowledged and 
eliminated. The computational analysis of large administrative 
datasets can reveal patterns, trends, and associations that 
provide very important insights about how to improve education.
    Chairman Rokita. Thank you, Doctor. Thank you, Doctor. The 
time's expired. You'll have to take care of it in questioning. 
I'm sure you'll get those points in.
    Mr. Whitehurst. All right.
    [The statement of Mr. Whitehurst follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Chairman Rokita. At this time, I'm going to recognize 
members for member questioning. And instead of recognizing 
myself, I'm going to reserve and instead recognize the chairman 
of the full committee, Chairwoman Dr. Foxx. You're recognized 
for 5 minutes.
    Ms. Foxx. Thank you, Mr. Chairman.
    And I want to thank our panelists for being here today. We 
appreciate your making the time to come.
    Ms. Stickland, I'm sorry to hear about what happened to 
your family with the DRT. We've had a whole hearing on that 
issue, as you may know. But it, unfortunately, highlights 
concerns parents have about the collection of valuable 
information of students.
    When you hear accomplished researchers like Dr. Whitehurst 
talk about how they protect the data they get so there's not as 
great a risk with sharing that data, does that give you peace 
of mind about sharing student data?
    Ms. Stickland. Thank you for the question. Parents aren't 
opposed to research or evidence used in making decisions for 
education. But I think what the FAFSA situation did reveal is 
that no data is completely safe. When it's linked to other 
agency data, it becomes especially vulnerable, and that linkage 
is a disclosure. So while we understand and appreciate that 
researchers are very cautious with data and there are measures 
to take to try and deidentify data and keep it confidential, it 
still poses a very significant risk.
    Ms. Foxx. Thank you.
    Dr. Schwartz, you've heard what Ms. Stickland has said 
about the breaches. What more do you believe your State could 
do to limit the data collected in the first place? And of the 
data collected, is there more the State could do to limit what 
is shared with outside entities without compromising meaningful 
feedback on school and program effectiveness?
    And I think the example given about helping students 
complete school and working within the school is a great 
example. But there was no need for that information to be 
shared with anybody else for the school to make the----work 
with those students, it seems to me. But please----please 
respond.
    Mr. Schwartz. It is critical----thank you. It is critical 
that we protect student privacy while also conducting research. 
And I think that we in our State have spent a lot of time 
thinking about how we can----how we can have these two things 
live together within our States. So we have a number of State 
laws on the books that require us to make public and 
transparent every data element that gets collected at the State 
level and to make public the ways that this data is being used 
for research purposes.
    So this isn't something being done behind closed doors. 
This is something that we want to disclose and make very clear 
what we're doing and why we're doing it. Because, as Ms. 
Stickland points out, I think there are clear, clear benefits 
to doing this right. I would also argue that there are clear 
benefits to, at times, linking data across agencies.
    So our----our strategic plan in Tennessee asks us to think 
about where students go beyond high school. For many years, the 
goal of bringing students to----of having students pass through 
our K-12 education system was high school graduation. But 
that's not enough. And one of the things we've been able to 
look at by linking data is to understand, so what happens to 
students who leave our high schools with only a high school 
degree and enter the workforce in Tennessee? The answer is that 
they are annually making a salary of somewhere around $10,000.
    We couldn't answer those questions without linking data. 
What I think we need are the secure systems for when that data 
is linked being absolutely sure that data is completely secure 
and ensures student privacy. And I entirely agree with Ms. 
Stickland's points about revamping some of our laws to make 
sure that is the case.
    Ms. Foxx. Dr. Whitehurst, you talk about the need for IES 
to support quick turnaround reports on high-impact policy 
issues. But is the problem the lack of quick turnaround 
capability or is the problem a lack of truly relevant research 
within existing research projects? Why would we need a quick 
turnaround study on a Federal program that might be impacted by 
a budget proposal? Would not that program have been evaluated 
already?
    Mr. Whitehurst. Well, in some cases, programs have been or 
components of programs have been evaluated already. But 
nobody's in a position, through Federal funding now, to 
synthesize that research, gather it together, and make 
reasonable conclusions about what we know going forward. On 
Federal Work-Study, for example, there is a body of research on 
it. It's spread over a number of years, a number of research 
teams, a number of universities. Somebody has to be responsible 
for gathering that together, drawing conclusions that are 
objective, not pushed by political point of view, and that can 
be expected to do that in a trustworthy fashion. I think IES 
has a role in doing that. It's not currently fulfilling that 
role because there is no budget or particular authority to do 
so.
    Ms. Foxx. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Thompson. [Presiding.] The gentlelady yields back.
    I now recognize Mr. Scott from Virginia, the ranking member 
of the full Education and Workforce Committee.
    Mr. Scott. Thank you, Mr. Chairman. And thank you for 
convening this hearing.
    First, Ms. Schanzenbach, one of the sensitive data points 
would be immigration status. It's my understanding that schools 
can't even ask about immigration status. So would that not be 
missing from the data?
    Ms. Schanzenbach. I don't know about that legally. But I 
know that, as a researcher, I've never had access to anyone's 
legal status.
    Mr. Scott. You mentioned studies in Chicago predicting 
dropouts. What were the conclusions and how would you target--
--how would they help you target money to maximize cost benefit 
of investments?
    Ms. Schanzenbach. Sure. So they----the researchers there 
looked to see what sort of factors predict high school dropout 
rates and what we can figure out, early-on, so we can intervene 
with kids, you know, in eighth grade or ninth grade or tenth 
grade. And they looked at a whole range of different potential 
triggers that then later on predict. So we really needed the 
solid research, you know, that they were able to do with that 
longitudinal data system.
    What they found was ninth grade credit attainment, and some 
other factors that were observable in ninth grade, were really 
good predictors of later high school graduation. So then they 
told that to schools. The schools were able to target kids who 
were sort of dropping off pace that way, get them sort of 
course-corrected back in ninth grade, maybe tenth grade. And so 
then they've seen their high school graduation rates increase. 
And lots of other cities have adopted the same program. I think 
it's a real success of research.
    Mr. Scott. Thank you.
    Mr. Schwartz, you indicated research on what happened to 
people after high school. I assume that one of the factors you 
looked into is what predictors there would be. How did you use 
that research to help students finish high school and get on 
the way to additional education?
    Mr. Schwartz. Sure. Many of the things we've looked at in 
Tennessee, actually, mirror the work from Chicago that Dr. 
Schanzenbach is referring to. And the new ESSA law has actually 
allowed us to think about how we integrate that into the day-
to-day work of our schools.
    So one of the things that ESSA asks States to do as they 
set up their State-level accountability systems is to think 
about----think about indicators other than test scores that 
could be used to hold schools accountable for the progress that 
students are making along the way.
    One of the things the Chicago work has found, and that 
we've also found looking at data in Tennessee, is that chronic 
absenteeism in those early years matters a lot toward how 
students succeed both across the course of high school, but 
then also what they do following high school. And so we have 
added to our accountability policies an indicator on chronic 
absenteeism that we will use to monitor school progress over 
the years.
    Mr. Scott. And has that action produced results?
    Mr. Schwartz. We are in year one.
    Mr. Scott. Okay. And, Dr. Whitehurst, you had an 
interesting idea that we ought to make our decisions based on 
research. That's a fairly unknown concept around here, so I 
appreciate it.
    But how are research projects now identified and how are 
the researchers selected?
    Mr. Whitehurst. The researchers are selected through a 
competitive process much like that that would occur at the 
National Institutes of Health as people are seeking grants to 
do health research.
    The topics themselves are broad topics, like a focus on 
teacher quality or dropout prevention, are really the 
responsibility of the director of IES to propose. It goes 
through the Board of Education Sciences. There's an annual 
report. There's input from a variety of people. And that's a 
process that needs to be quite sensitive to changing----
changing priorities, education policies, and political policy. 
Things happen. You need to do research on those things, and 
it's the responsibility of the agency to be responsive to those 
needs.
    Mr. Scott. And after you've done the research, how does the 
public benefit from the results?
    Mr. Whitehurst. Well, it can benefit from----in a number of 
ways. We've heard, for example, through the testimony of Dr. 
Schwartz, how citizens of Tennessee have benefited from 
research done there, or in the case of Dr. Schanzenbach, how 
students in Chicago benefit.
    Mr. Scott. Can the rest of the country benefit from what 
goes on in Tennessee? Do you disseminate it around the country?
    Mr. Whitehurst. The IES has a signature product called What 
Works Clearinghouse that examines research on what works, 
including issues such as high school completion and dropout 
prevention. And that evidence is widely used. It produces 
practice guides that combine evidence that provides suggestions 
to teachers or school administrators about how to put research 
into practice.
    It's always a challenge to get knowledge into the field to 
have it utilized. There are weaker pressures to do this in 
education than in fields like health. And so there needs to be 
an active effort----I think a more active effort than we have 
now to get the information out, to see that it's available for 
people who want to use it.
    It would be easier if IES were a business. You could be 
paying for ads and other things to get the message out. We have 
some constraints. But I think that is a challenge going forward 
and one that the agency needs to do a better job of.
    Mr. Thompson. The gentleman's time has expired.
    I'll take the liberty of the next 5 minutes.
    Ms. Stickland, in your testimony you laid out some 
compelling reasons we should be concerned about limiting what 
personally identifiable information is collected by schools and 
States. But you also said you support accountability and 
research to determine what works in education.
    Do you believe we can protect student privacy while also 
helping educators learn what works and what does not so our 
children can have the best education possible?
    Ms. Stickland. Thank you for the question. I would suggest 
that, yes, parents do support research, again. But I think 
there needs to be some transparency and fair information 
practices around what schools and States are collecting and 
disclosing to others. I think the more that parents know and 
understand, the more they will trust. And trust is a huge issue 
when it comes to, you know, children being in a school system.
    Mr. Thompson. Thank you.
    Dr. Schwartz, you talked about the need for an emphasis on 
research and program evaluation within State departments of 
education. Do local school districts view this as a valuable 
role for the State departments? And, if so, what is the value 
to them? And, if not, what can States do to better help school 
districts understand and experience the benefit?
    Mr. Schwartz. Thank you. That's a really important 
question. And we view districts as our primary clients. And 
they are actually our----both our partners in getting the 
research done, but the primary source of demand for this 
research. So I think much of the demand for strong research 
comes from our districts. But school districts also face just a 
deluge of voices offering advice and direction. And if research 
isn't clearly applicable to their situation, they will quickly 
move on.
    Too often, I think, even when State departments engage in 
high-quality research, what comes back feels overly narrow and 
very much tailored to a specific program that if you aren't 
running in your district, you have trouble figuring out how to 
use that research. And that's why these long-term partnerships 
that I mentioned are key. Ideally, though, it will allow you to 
focus on learning beyond a single study, just what Dr. 
Whitehurst was talking about, and create an engine for 
disseminating data and analysis in ways that speak directly to 
practitioners.
    So we're hoping that with the Tennessee Education Research 
Alliance what we'll get is an organization that can take 
learning across the many studies that are happening in a single 
area in Tennessee and think about, what is that telling us 
about a State or district strategy, and how can practitioners 
at the school and district level use this to improve.
    Mr. Thompson. Thank you.
    Dr. Whitehurst, how important is it----I believe in----good 
public policy comes from being data driven, good research. How 
important is it to have transparency when an agency makes 
policy decisions or directions, to provide transparency to the 
research that is----that those conclusions are based upon?
    Mr. Whitehurst. It would be wonderful if that happened----
    Mr. Thompson. It would be.
    Mr. Whitehurst.----wouldn't it? And it would be wonderful, 
when it happened, if there wasn't kind of manifest cherry-
picking of evidence to support the decision. That's why I think 
the availability of an objective source for evidence that bears 
on public decision-making, that's free from political 
influence, is terrifically important. Because absent that kind 
of break, you find a lot of narrative and hand waving about 
using evidence, but it's more misused than it is used.
    Mr. Thompson. Yeah. And I don't have a specific criticism 
within the realm of jurisdiction of this committee with 
education. But some of my other responsibilities, bumping up 
against other agencies who have refused to reveal the research 
that they've utilized to make their decisions, that's not 
helpful as a policymaker. And I don't think it's helpful for 
the community as a whole.
    Dr. Whitehurst, you talked about the need to ensure IES has 
an independent administration budget. Are there other ways that 
Congress could strengthen the IES' independence?
    Mr. Whitehurst. Well, the current legislation is really 
quite good. It's viewed as a model by the other research and 
evaluation Federal agencies. They envy it. So I would say 
Congress has done a very good job there. And if I had specific 
recommendations for areas in which I thought the legislation 
was lacking, I would have given it to you.
    So, really, it's the budget to do the work in terms of 
hiring staff and having an office to sit in that's still 
subject to political control in the one area where I think 
Congress could fix an important issue.
    Mr. Thompson. In the few seconds I have left, are there 
other areas----you were recommending in a previous response to 
a question with the chairman, recommendations that you might 
have and you weren't able to get through those, or anything 
additional you wanted to list at this point?
    Mr. Whitehurst. Well, I just wanted to make the point with 
regard to the sharing of data. And I think what we need is an 
investment at the State level so that they have the capacity to 
protect the privacy of their data. And we need to figure out--
--and we have the capacity but not the funding to do this----
how to make data available to the research community that does 
not have personally identifiable elements.
    So you can do the analysis to your heart's content, little 
Suzy's data are in there, but you can never figure out who 
little Suzy is. There's the capacity to do that. We just don't 
have that capacity at the State-level, uniformly, to make sure 
that data are shared in ways that don't have any threats with 
regard to individually identifiable data.
    Mr. Thompson. Thank you. My time has expired.
    Please recognize the gentleman from Colorado, Mr. Polis, 
for 5 minutes.
    Mr. Polis. Thank you.
    First, we value accuracy on the committee. And I wanted to 
bring Ms. Stickland's attention to one of her comments that I 
believe to be inaccurate, and I want to give her the chance to 
either correct that or give our committee an example.
    You cite that K-12 student data currently maintained by 
States in their SLDS contains upwards of 700 highly sensitive 
personal data elements. I'm certainly not going to dispute the 
overall number. It probably depends on how you define an 
element and the granularity, and a separate discussion. But 
among the examples you cite, including student disciplinary 
records, homelessness data, you include immigration status.
    I wanted to give you the chance to either retract that, 
because it is illegal under the Plyler precedent to collect, no 
less include it in a State database, immigration. Or, if it is 
correct, if you could tell us what State is doing that so we 
can further investigate this violation of our law.
    Ms. Stickland. Sure. Thank you for the question. For 
instance, in Colorado, there is a data field called migrant, 
yes or no.
    Mr. Polis. Okay. So that does not relate to immigration 
status. That would be for specific funding that comes through 
the migrant worker program. Their immigration, that is a 
separate----immigrants are not migrant workers. They're 
different.
    Ms. Stickland. Oh, I think----I think the reference to that 
in my testimony----and I'm sorry that you find it inaccurate. I 
think the purpose of that is that whether it's a migrant----you 
know, if the data field says migrant, yes or no, that could----
that information could be used in the future in ways that maybe 
it wasn't initially intended for the Federal reporting.
    Mr. Polis. Would you like us to perhaps change immigration 
status to migrant workers----migrant worker information?
    Ms. Stickland. Migrant status would be fine.
    Mr. Polis. Okay.
    Ms. Stickland. Thank you for the clarification.
    Mr. Polis. Okay. It's whether they are part of our----we 
have Federal funding that goes to our migrant programs. And 
these are highly mobile students that tend to work seasonally 
in certain areas. It's a very small subset of immigrants, both 
documented and not, and it has nothing to do with their 
immigration status.
    Ms. Stickland. Well, I understand that, sir.
    Mr. Polis. So I just wanted to clarify that. Thank you.
    Ms. Stickland. But I just wanted to clarify that that's the 
reason why we're concerned about a data field such as that, is 
that it's intended now for a certain purpose. But that doesn't 
mean it will be limited to that purpose in the future. And 
that's the same with any other data field in a data system.
    Mr. Polis. Yes. But the immigration status is not 
collected, no less included in a database, so I just wanted to 
be clear, under the Plyler decision.
    Ms. Stickland. Thank you.
    Mr. Polis. I want to go to Mr. Whitehurst. You said of the 
Strengthening Education Through Research Act, is your quote: I 
strongly support the bill as passed by the House and amended by 
the HELP committee. As you know, the bill ultimately failed 
both chambers, did not make it through.
    In your expert opinion, as a leading educational researcher 
and former head of the Institute for Education and Science, 
should Congress maintain the bipartisan agreement in SETRA and 
move to pass the bill to strengthen the independence of IES, 
streamline administrative functions, and improve the relevant 
and usefulness of education research?
    Mr. Whitehurst. Yes.
    Mr. Polis. Thank you.
    Dr. Schwartz, as we continue the conversation about data 
privacy, one of my concerns is that policies could create 
additional paperwork for districts, more work for districts and 
teachers. What I hear from educators in the classroom, that's 
the last thing we need. In my district, many teachers feel 
they're required to do more and more year after year.
    There should be a baseline level of privacy that everybody 
has to comply with so schools have that privacy assurance as 
soon as they start using a product rather than put additional 
burden onto the educators. Of course, the other side is that 
districts and schools need to develop strong local data 
policies as well around both protection and privacy.
    Can you talk about what Congress should do in a FERPA 
reauthorization to give States like Tennessee or Colorado the 
assistance they need to develop these policies?
    Mr. Schwartz. I think additional guidance for local-level 
policies around privacy would be enormously useful. Because I 
do think that there are areas of FERPA, specifically around 
things like the ways that data needs to be suppressed----the n-
size comments that you made earlier get at some of this----but 
that are interpreted very, very differently jurisdiction to 
jurisdiction. And having some guidance on what that looks like 
and balancing----I think there always will be and is a balance, 
and some tension, between wanting data to be used for research 
purposes and understanding that security is at a premium and 
that we need schools and districts to do what they can to keep 
data safe.
    Mr. Polis. And the final question, Dr. Schanzenbach, we can 
talk about this endlessly, but in 30 seconds, can you talk 
about why the data is so important in determining how to 
allocate our limited dollars to have the optimal results? How 
can data better guide us having the best positive educational 
impact with the limited resources we have?
    Ms. Schanzenbach. We need the research to tell us, you 
know, what works and what doesn't work, and, you know, 
redistribute to things that do work the things that don't.
    Mr. Polis. Thank you.
    Yield back.
    Mr. Thompson. The gentleman yields back.
    I now recognize the gentlelady from Oregon, Ms. Bonamici, 
for 5 minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman. And thank 
you, Ranking Member Polis, for having this hearing. And thank 
you to all of the witnesses. This has been a very good and 
important conversation, and I'm glad there's agreement among 
all of us that we benefit from research and we also need 
privacy. So we're starting out with that agreement.
    I want to thank Mr. Polis for clarifying the record on 
immigration status. As someone who's very concerned about the, 
perhaps, eroding trust, if we sent the message that was 
collected information. We have already a lot of students who 
are fearful and families who are concerned about increased 
efforts to enforce. And when we have families not participating 
in parent-student conferences, for example, and kids are afraid 
to go to school because they don't know if their parents will 
be there when they get home, we don't want to send that 
message. We want students to attend school and feel safe there 
and be safe there. And our Supreme Court has held that they're 
entitled to go to public education without regard to their 
status.
    So schools and families in Oregon benefit from rigorous and 
relevant research that's supported by the Institute of 
Education Sciences and the State's longitudinal data system. My 
alma mater, University of Oregon, has used funding from IES to 
develop evidence-based reading interventions that are in 
practice in schools today and are improving student outcomes.
    For example, Durham Elementary School in Tigard, they're 
making some great gains in reading by using these 
interventions. And that was made possible by data collected 
about students.
    Beaverton School District, which is where my kids went to 
school, collects extensive data on discipline in schools. And 
it's partnered with the area's regional educational laboratory, 
which is also funded through IES, to compare data with other 
school systems and develop best practices. And they have seen a 
40 percent drop in exclusionary discipline from doing that 
research and that work.
    So, by all means, we must protect student data. But we also 
need to promote robust protections while furthering research 
that really helps with student success. And I think a good 
example of this balance can be found in Oregon's longitudinal 
data system. We use multiple layers of protection, including 
encryption, deidentify student data, all while supporting 
important research.
    So, Dr. Schanzenbach, Oregon has dedicated extensive time 
and resources to develop that data system, and by gathering 
data that allowed the States to do the longitudinal analysis 
versus just year by year, Oregon's been able to support student 
achievement. We found that the year a student becomes 
proficient in English matters a great deal. Non-native speakers 
who achieve proficiency in English by the eighth grade graduate 
at a higher rate than native English speakers. And those who 
achieve proficiency by the ninth grade have graduation rates 
below average. So Oregon's been able to direct ELL funding and 
policy to support earlier interventions.
    So can you speak of other examples of how State 
longitudinal data systems can support student achievement and 
also benefit professional development, assessment literacy, and 
data-driven decision making?
    Ms. Schanzenbach. There are so many examples of this. I'll 
go into one, but I can answer, you know, more. I can talk about 
this all day, unfortunately.
    So we have a partnership with Evanston Township High 
School, with Northwestern, that was funded by IES. And we have 
worked together with them to answer some research questions 
that they have that they just don't have the internal capacity 
to answer. So, for example, they were interested in trying to 
understand what would happen if they expanded access to 
advanced placement biology classes. So are those kids who are 
qualified to either take advanced placement or regular biology, 
are they better served by getting pushed into the AP class?
    What we found for them was, yeah, the answer is yes. So 
let's challenge kids to take AP. They do better. They take more 
AP classes. There's just lots of spillover benefits. It doesn't 
hurt the kids who are already in the AP to have a couple of, 
you know, students who are sort of more on the margin. So 
that's an example.
    Our graduate students at Northwestern got to answer that 
question. So it was really important for them to help learn, 
you know, how to do research and how to interact, you know, 
asking rigorous, relevant questions. I think that's just 
another example of really good research that helps kids.
    Ms. Bonamici. Terrific. Thank you.
    And Oregon passed, a couple years ago, the Oregon Student 
Information Protection Act at the State level. It prevents ed-
tech companies from selling student information and targeting 
advertising to students using specific information to send ads 
or creating a profile about a student unless it's for school 
purposes. They also require companies to have reasonable 
security measures in place, delete student information when the 
school asks them to delete it, and then clarifies where and 
when they can use student information.
    So can you talk about the relative threat posed by the 
storage of information in a statewide data system versus that 
of the students' increasing use of technology in the classroom?
    Ms. Schanzenbach. I can say, as a parent, I'm much more 
concerned about what my kid is doing on the internet than this 
secure data being made accessible to researchers.
    Ms. Bonamici. Thank you.
    And I see my time has expired. I yield back. Thank you, Mr. 
Chairman.
    Mr. Thompson. The gentlelady's time has expired.
    I want to thank our witnesses for taking time to testify 
before the subcommittee today. Your time and your expertise is 
very much appreciated.
    I now recognize Ranking Member Polis for any closing 
remarks that he may have.
    Mr. Polis. Are we doing a second round of questions or are 
we just doing closing remarks?
    Okay. Let me see here.
    Okay. Well, I want to thank all four of our witnesses for 
coming. From our discussion today, I think it's clear that 
supporting privacy is paramount to our work, along with 
supporting education data research. And that's an area I expect 
we'll have continued bipartisan support.
    The Every Student Succeeds Act contains key civil rights 
provisions that will help ensure that every student receives a 
great education and that schools are held accountable for 
performance and school districts as well. And, of course, one 
of the key ways we know how schools are performing is we look 
at data.
    We also need to know what programs are working and which 
ones are not, particularly as we look for wasteful spending so 
that we can cut that. Using reliable, de-identified, protected 
data is a key part of identifying what works and what doesn't 
work.
    We've had some great testimony about experience using data 
to help improve our education system, the value smart data can 
provide. At the same time, our data privacy laws have to keep 
up with innovations in technology. And educational technology 
can and should and is and will be a force for good in closing 
the achievement gap and opening doors for personalized 
education. And, at the same time, we need smart privacy laws 
that parents and students and teachers can feel good about, 
protect their privacy, and can have confidence that companies 
or States or districts won't be using student data 
irresponsibly or failing to protect student data.
    In a bipartisan fashion, I hope this committee continues 
its work with teachers, with parents, with privacy advocates, 
with educational technology companies, with school districts, 
with States to reauthorize FERPA and SETRA, and pass a new law 
to provide smart privacy guardrails for the increasingly 
important educational technologies that are already deployed in 
our schools and those that will be deployed.
    I look forward to continuing this work on a bipartisan 
basis. This hearing is an excellent first step.
    And I yield back the balance of my time.
    Mr. Thompson. The gentleman yields back, and I thank him 
for his leadership.
    I now recognize myself for closing comments.
    You know, the Education Science Reform Act was created to 
update and improve efforts to support education research to 
improve schools, but the law may not be meeting, obviously, all 
of its goals. The 2013 Government Accountability Office report 
found several weaknesses in the law that have to be addressed, 
and that's why we reauthorize and a chance to make things right 
going forward.
    Congress passed the Family Education Rights and Privacy Act 
in 1974, by my calculations, about 43 years ago, to protect 
student privacy. Quite frankly, most of our staff were not 
alive at that point, and a significant number of our colleagues 
were not alive at that point. It's time, it is certainly beyond 
time.
    You know, the purpose of this hearing today was to learn 
from States, parents, stakeholders how they protect student 
privacy and utilize education research, including suggestions 
on how to reform the Education Science Reform Act and update 
the Family Educational Rights and Privacy Act. I think we've 
really----once again, I want to thank the panel that we had 
here today. You got us a great start on that journey. It is a 
journey, and we have a lot more work to do. But thank you for 
your contributions today. It's appreciated.
    Without objection, there being no further business, the 
subcommittee stands adjourned.
    [Additional submissions by Mr. Polis follow:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
    [Additional submission by Chairman Rokita follow:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
    [Additional submission by Ms. Stickland follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    
    [Questions submitted for the record and their responses 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    [Dr. Schanzenbach responses to questions submitted for the 
record follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    [Dr. Schwartz responses to questions submitted for the 
record follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    [Dr. Whitehurst responses to questions submitted for the 
record follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [Whereupon, at 11:06 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
